CERTIFICATE OF SERVICE
I hereby certify that 1 copy of the foregoing Brief of
Amici Curiae David Codrea, Scott Heuman and Owen
Monroe in Support of Petitioner in 21-159, W. Clark
Aposhian v. Merrick B. Garland, Attorney General, et
al., was sent via Two Day Service to the U.S. Supreme
Court, and 3 copies were sent via Two Day Service and
e-mail to the following parties listed below, this 31st
day of August, 2021:
Charles Justin Cooper
Cooper & Kirk, PLLC
1523 New Hampshire Avenue, N.W.
Washington, DC 20036
(202) 220-9600
ccooper@cooperkirk.com
Counsel for Petitioner
Brian H. Fletcher
Acting Solicitor General
United States Department of Justice
Room 5616
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondents

/s/ Stephen D. Stamboulieh
Stephen D. Stamboulieh
Counsel of Record
Stamboulieh Law, PLLC
P.O. Box 428
Olive Branch, MS 38654
(601) 852-3440
Stephen@sdslaw.us
Alan Alexander Beck
2692 Harcourt Drive
San Diego, CA 92123
(619) 905-9105
Alan.Alexander.Beck@gmail.com
Counsel for Amici Curiae

